Department of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





   MEDICARE HMO APPEAL AND
     GRIEVANCE PROCESSES

             Review of Cases




                    JUNE GIBBS BROWN
                    Inspector General

                       DECEMBER 1996
                        OEI-07-94-O0283



             —
                        OFFICE OF INSPECTOR               GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,

is to protect the integrity of the Department   of Health and Human Services programs

as well as the health and welfare of beneficiaries served by them. This statutory

mission is carried out through a nationwide program of audits, investigations,

inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary

of program and management        problems and recommends legislative, regulatory, and

operational   approaches to correct them.





                         Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several          components of the

Office of Inspector General.     It conducts short-term management        and program

evaluations (called inspections) that focus on issues of concern to       the Department,    the

Congress, and the public. The inspection reports provide findings          and

recommendations     on the efficiency, vulnerability, and effectiveness     of departmental

programs.


The OEI’S Kansas City Regional Office prepared this report under the direction             of

James H. Wolf, Regional Inspector General.   Principal OEI staff included:


KANSAS CITY REGION                                   HEADQUARTERS

Jennifer Collins, Project Leader                     Stuart Wright, Program  Specialist

Linda Paddock, Program Inspection                    Barbara Tedesco, Mathematical

 Assistant                                            Statistician

Hugh Owens, Program Analyst                          Brian Ritchie, Program Analyst


DALLAS REGION

Judith Tyler, Program    Analyst


To obtain   a copy of this report,   call the Kansas City Regional   Office at (816)426-3697.

Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   MEDICARE HMO APPEAL AND
     GRIEVANCE PROCESSES

            Review of Cases
               EXECUTIVE                          SUMMARY


PURPOSE

To determine the effectiveness of Health Maintenance   Organizations’ (HMOS)
processing of Medicare beneficiary appeals and grievances through on-site reviews.

BACKGROUND

Beneficiaries may join a risk HMO through the Medicare program.        For a
predetermined    monthly amount, the HMO provides Medicare covered medically
necessary services. The goals of this coverage are to provide coordinated medical
care, offer comprehensive   benefits, and contain costs by using the most cost-efficient
methods of treatment and preventing unnecessary care. As a protection for
beneficiaries, the Social Security Act requires Medicare HMOS to have two separate
and distinct processes, an appeal and a grievance process, to handle beneficiary
complaints.

In order to protect beneficiaries from inappropriate    denials of services or payment,
the Act requires that Medicare HMOS establish an appeal process to handle these
types of complaints.   If an enrollee disagrees with the HMO decision to deny services
or payment, the enrollee has 60 days to file a request for reconsideration.     If the
HMO’s decision is against the beneficiary in whole or in part, the HMO is required to
automatically  send the case to the Network Design Group within 60 days for an
independent   Federal review.

All other complaints such as those relating to quality of care are processed under a
separate internal grievance procedure.     Under this procedure, there are no specific
time frames or preordained    levels of review established by law. However, HMOS are
responsible for timely transmission, an investigation, decision, and notification of the
results.

From a universe of 132 risk-based HMOS, we selected a purposive sample of 10
HMOS for on-site review. To provide a cross-section, HMOS were selected by number
of enrollees, rate of appeals sent to Network Design Group, beginning contract date,
location, and other criteria. Within the sampled HMOS, we randomly selected cases
for review (144 appeals and 148 grievances) and analyzed them to determine whether
procedural guidelines were followed, if complaints were being properly categorized, if
time requirements    were being met, and if problems or weaknesses existed in the
appeal/grievance   processes.

FINDINGS

Beneficiarieswerenot alwaysadviwdof theirappealrightrat the time servicesorpayment
were denied.

Regulations require HMOS to issue a written “initial determination”     of denials and to
advise patients of their right to request a reconsideration (appeal).   Twenty-seven


                                              1
percent of sample case files did not have initial determinations  on file, 5 HMOS sent
them without including the required appeals rights (6 cases), and 5 more sent the
notice to beneficiaries after receiving their appeals (12 cases).

I%e HMOS dki rwtproperly&tzk@h          appah jiom grkvances.

HMOS incorrectly processed appeal issues as grievances in 37 cases. This represents
26 percent of the 148 grievances we examined.      Every plan made at least one such
error. In addition, three incorrectly processed five complaints that included both
appeal and grievance issues. The distinction between appeals and grievances is
important to beneficiaries because appeal cases (denials of services or payment) are
subject to independent    Federal review for appropriateness  of the HMO decision while
grievances are only subject to internal HMO reviews.

l%e HMOS did not jidly comply nu”thHealth CareFinancingAdministration(HCFA)
directivesforprocixsing appealsandgrievanmx

Processing Appeals. Five HMOS did not refer eight denied cases to Network Design
Group. Three did not document the basis for “good cause” for accepting 14 cases
filed after 60 days. Five sent beneficiaries multiple initial determinations in nine cases.
In addition, 5 HMOS had 13 cases where beneficiaries appealed several times before
the plans would begin the appeals process.

Time Frames for Appeals. Five HMOS did not issue the initial determination         within
60 days of the beneficiary’s initial request for services or payment in 11 cases. One
HMO waited two years before sending two cases to Network Design Group and
resolution took five years. Nine plans did not make the reconsideration     determination
within 60 days or inform the beneficiary timely in 19 percent (28 cases) of our sample.
Further, 4 HMOS did not send 9 cases to Network Design Group within the required
60 day time frame.

Resolving Grievances. One HMO suspends action on grievance cases while awaiting
medical records. If records are not received, cases remain closed without resolution.
One other plan had seven while another had two unresolved grievance cases that were
either suspended without resolution or closed without resolution.

Documentation. Eight HMOS had undated initial determinations or did not have
them on file in 46 appeals cases (32 percent of the sample). Five plans had 25 appeal
cases (17 percent of the sample) where there were no dates on the reconsideration
determinations   or they did not have them on file. Five HMOS did not have
documentation    supporting that beneficiaries were notified of grievance results in
15 cases. Also, 6 had such poor documentation      that it was impossible to reconstruct
16 appeal cases (11 percent) and 8 grievance cases (5 percent).

RECOMMENDATIONS

HCFA’S Office of Managed Care is making substantial efforts to improve the HMO
appeal and grievance processes.  It has recently created a work group - Managed Care
Appeals and Grievance Initiative - organized to make program improvements     in these



                                             ii
functions.  In 1995, HCFNs Office of Managed Care retised guidelines used by
HCFA Regional Offices in their annual review of HMOS. In addition, HCFA in
conjunction with Netsvork Design Group, has conducted training sessions, provided
technical assistance, and issued publications to improve HMOS’ understanding     and
processing of appeals and grievances.     HCFA plans to revise the HMO/CMP Manual
and has received funds to evaluate problems in the area of appeals and grievances.
However, as our findings reflect, there are areas where improvement   is needed.

We recommend          that HCFA

  �   ensurethatHMOS cowect~ distinguish
                                       andprocessappeakandgn”evances.

      HCFA can       accomplish this during their annual visits to HMOS. However, we
      suggest that    HCFA conduct case reviews as well as examine the operating
      procedures     to determine that appeals and grievances are processed correctly. We
      also suggest    that HCFA focus closely on whether HMOS:

         - are in compliance      with all directives      in processing    of appeal    and grievance
           cases;

         - include   appeal   rights in all initial determinations         sent to beneficiaries;   and

         - release initial determinations and reconsideration               decisions   in appeal   cases
           according to established time frames.

  �   rnodijj the HCFA HMO/CMP Manual to clar#j and specijj kq requirements.
      This can be accomplished by:

         - clarifying the explanation and language            required on the appeal and grievance
           issues to improve HMOS’ understanding                of the differences and

         - establishing minimum requirements      for documentation   of appeal and
           grievance files so that an independent    reviewer, based upon examining the
           files, will be able to follow and understand the adjudication by the HMO.

  �   broaden#orts to forma@ traihHMOS on the appal andgrievanceprocesses.

      We noted a significant amount of turnover in HMO staff responsible for
      processing appeals and grievance cases during this inspection.    In light of this
      turnover, there is a need to continue training on a routine basis.

AGENCY COMMENTS

We solicited and received comments on our draft report from HCFA. They agreed
with the conclusion of our reports that improvements are needed and indicated that
they are working to implement a number of our recommendations.     We are pleased


                                                    .. .
                                                    111
that HCFA agrees that improvements        are needed in the appeal and grievance
processes, and we recognize that changes are in the process of being made through
the Medicare Appeals and Grievance Initiative (MAGI).         However, because HCFA’S
response does not specifically address the recommendations      contained in our reports,
we are unsure whether the problems identified in our report will be fully addressed
through this initiative. As a result, it will be important for HCFA to include in their
response to the final report an action plan that specifically addresses each
recommendation.

The full text of HCFA’S comments     is included   as an appendix   to this report.




                                            iv
                         TABLE                    OF CONTENTS

                                                                                                                      PAGE


EXECUTIVE SUMMARY


       PORTS
RFWWEDRE
                           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


INTRODUCHON                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..6


    � Appeal    Rights     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...6


    � Distinguishing     Appeals       from Grievances            . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..7


    � Complying      with HCFADirectives                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


        Processing     Appeals        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8


        Time Frames        for Appeals          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9


        Resolving      Grievances       . . . . . . . . . .. . .. .. . .. . . . . . . . . .. . . . . . .. . . . . . .           10


        Documentation          . . . . .. . .. . . . . . . . . . . .. . .. .. . . .. . . . . . . . . . . . . . . . .            10


RECOMMENDATIONS.
              .  .........                                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


APPENDIX


A     Problem     Areas Detected          inHMO         Case File Reviews             . . . . . . . . . . . . . . . . . . A-1


B: HCFAResponse                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1

       RELATED             REPORTS





This is one of a series of four reports relating to
Medicare risk HMO appeal and grievance processes.
The four reports are:


Medicare HMO Appeal and Grievance      Processes:
Overview, (OEI-07-94-O0280)

Medicare HMO Appeal and Grievance Processes:
Beneficiaries’ Understanding, (OEI-07-94-00281)

Medicare HMO Appeal and Grievance      Processes:
Survey of HMOS, (OEI-07-94-00282)

Medicare HMO Appeal and Grievance      Processes:
Review of Cases, (OEI-07-94-00283)




                           1

                           INTRODUCTION


PURPOSE

To determine the effectiveness of Health Maintenance   Organizations’ (HMOS)
processing of Medicare beneficiary appeals and grievances through on-site reviews.

BACKGROUND

Le@lation

Sections 1833 and 1876 of the Social Security Act specify the requirements      that HMOS

must meet in order to enter into a contract with the Health Care Financing

Administration   (HCFA) to furnish Medicare covered services to beneficiaries.       The

goals of HMO coverage are to provide access to medical care while containing costs

by using the most cost-efficient methods of treatment and preventing unnecessary care.

In addition, HMOS can reduce the medical management          complexities experienced by

elderly patients with multiple chronic conditions, the paperwork burden of a

“fee for service” system, and financial barriers to obtaining preventive and medically

necessary health care.


Unlike   traditional“fee for service,” HMOS are designed to coordinate care through a

primary care provider, offer comprehensive    benefits, and reduce or contain the costs

of medical treatment.    They operate under a fixed annual budget, based on the

prepaid premiums.     Except for fees of a few dollars for each doctor’s visit or

prescription, the premium is to cover all of a patient’s medical needs which include

everything from checkups to open-heart surgery.


Rikkand Cost Plans

There are three types of Medicare HMO plans included in the Act. Generally, the
differences involve the method used by HCFA to reimburse the HMO for providing
services and delivering medical services to beneficiaries.  The three types of contracts
are risk-based, cost-based, and Health Care Prepayment Plan (or HCPP) HMOS. The
latter two types are paid on a reasonable cost basis, wherein any differences in actual
costs and interim payments are reconciled and adjusted with HCFA at the end of the
year. Risk-based are reimbursed on a prepaid cavitation basis with no retrospective
adjustment.    While cost-based and HCPP HMOS give beneficiaries a choice of
physicians that they see, a risk-based plan requires enrollees to be “locked” into only
its contracted physicians unless emergency or urgent care is needed.

As of March 1, 1996, there were 197 risk-based HMO plans, 27 cost-based plans, and
54 HCPPS nationwide, which accounted for almost 4 million Medicare HMO enrollees,
or 10 percent of the total Medicare population. While Medicare enrollment in
managed care has increased 67 perc&~ since 1993, HCFA reports that enrollment in
risk-based plans has grown 105 percent.



                                             2

Ap~al & GrievanceBocesses

One of the most effective ways HMOS contain costs is by using family practitioners     or
internists as “gatekeepers” to control a patient’s access to services. The patient
chooses one doctor as a primary care physician; from then on that doctor setves as
first arbiter for any treatment.  The primary care physician provides medical
examinations    and treatments, and serves as a “gatekeeper” to specialty care, except in
emergency and urgent care situations.

Because the payment mechanism of HMOS provides a strong incentive to manage
utilization of enrollee medical services (including the institution of a physician
“gatekeeper” and use of medical practice guidelines), the Act requires that HMOS
establish an appeal process to handle disputes Medicare enrollees have involving a
denial of or payment for services they believe should be covered by the HMO. Other
kinds of complaints such as quality of care received are handled under a grievance
procedure.    Prior to May 1995, only risk and cost-based plans were required to have
these processes in place. HCPPS now must also comply with these requirements.

HCFA directives require HMOS to inform beneficiaries of their appeal/grievance
rights at enrollment, in member handbooks, and annually through a newsletter or
other communication.

Appeals Process - According to 42 CFR, Sections 417.600-638, an appeal is any
dispute involving a denial of services or ayment for services made by the HMO.
Federal regulations and the HMO/CMP P Manual require a five-step process and time
limits for each step. HMOS must make an initial determination         upon receiving an
enrollee’s request for services or payment for services within established time frames
(24 days if the case is complete and no later than 60 days if development       is needed).
Each plan is required to make a decision on information they currently have within
this time frame. If the decision is to deny services or payment, the enrollee has 60
days from the date of the initial determination   to file a request for reconsideration
(appeal) in writing unless “good cause” can be shown by the beneficiary for the delay.
The HMO then has 60 days to make a reconsideration          decision.

If the HMO’s reconsideration     decision is against the beneficia~ in whole or in part,
the HMO is required to automatically forward the case to HCFA for an independent
review to determine if the decision is appropriate.     Due to the increasing numbers of
appeal cases, HCFA contracted with Network Design Group (NDG) in January of
1989 to fulfill this function. The number of appeals reviewed by NDG has varied in
the last 3 years from a high in 1993 of 3,806, to 2,945 in 1994, and 3,691 in 1995.

Beneficiaries whose cases are not resolved fully in their favor at the NDG level can
request a hearing before an Administrative     Law Judge (AU) if the disputed amount is
at least $100. After this level, any party (including the HMO) may request a review by
the Department   of Appeals Board if there is dissatisfaction with the ALJ’s decision or



   1 Competitive   Medical   Plan



                                              3
dismissal. The final recourse in the appeals process is a Federal court review if the
Board denies the party’s request for review, and the amount in controversy is $1,000
or more.

Grievance Process - Grievances are any complaints about a Medicare enrollee’s
experience with the health plan and/or its providers, excluding determinations
involving payment for services or denial of services (which are subject to the appeals
process).  Examples of grievable issues include quality of care, physician behavior,
involuntary disenrollment concerns, and waiting times for services.

Guidance for processing grievances is found in 42 CFR, Sections 417.600 and 417.606,
and in Section 2411 of the HMO/CMP Manual. The guidelines do not provide for
time frames or specify levels of review, but call for “timely” transmission, an
investigation, decision, and notification of the results. While appeal cases that are not
resolved fully in favor of the beneficiaries are subject to independent    HCF~ AL.J,
Appeals Board, and Federal court review, beneficiary grievances are only subject to
internal levels of review within the HMO.

The Office of Managed Care (OMC) within HCFA is responsible for policy and
oversight of HMOS and ensuring there is compliance with the appeal and grievance
regulations. To assist plans in these processes, OMC has created the appeal and
grievance sections in the HMO/CMP Manual.

METHODOLOGY

From a universe of 132 risk-based HMOS obtained from HCFA’S April 1995 “Monthly
Report of Medicare Prepaid Health Plans,” we selected a purposive sample of 10
HMOS for on-site review. We did not include cost-based plans and HCPPS in the
sample as the majority of Medicare beneficiaries are enrolled in risk-based HMOS.
We based our selection upon the number of enrollees, rate of appeals sent to NDG
(including no appeals and highest rates of appeals), number of appeals overturned at
this level, beginning contract date, and percent of retroactive disenrollment2. Also, an
important factor in our selection was location; two plans were selected in close
proximity to each other for economy of travel and for geographical representation
within the country.

While we randomly selected 150 appeal cases and 150 grievance cases (15 of each in
the plans), the HMOS were able to provide only 144 appeals and 148 grievances for


     2 Retroactive   Disenrollment    is an administrative procedure established by HCFA to reverse a
beneficiary’s enrollment     back to Medicare fee-for-service   participation.    An example where this might
be used is in a case where HCFA determined that a beneficiary did not understand             how HMOS operate
at the time of enrollment      and incurred large out-of-pocket   expenses from services obtained outside the
HMO.      In this case, HCFA may approve a retroactive disenrollment           which would require an HMO to
reimburse premiums paid by the beneficiary and the medical bills would be processed through
Medicare.




                                                      4

our review. One HMO had only 8 appeal cases in our sample time frame (1/1/94 to
7/3 1/95), and at another we sampled 16 cases. Because the latter plan was unable to
provide us a universe of cases, we selected on-site eight cases from 1994, and eight
cases from 1995. In the grievance sample, one HMO had only 13 cases in the
universe.   We analyzed the cases to determine whether procedural guidelines were
followed, if appeals and grievances were being properly categorized, and if time
requirements   were being met. We also reviewed cases to determine if there were
problems or weaknesses in the appeal/grievance     processes.

Because we used a purposive sample of HMOS, the results from this study only apply
to them and cannot be projected to the universe of Medicare risk HMOS.

We conducted our review in accordance with the QuaZi2y Standards for Iinpections
issued by the President’s Council on Integrity and Efficiency.




                                          5

                                   FINDINGS


BENEFICIARIES WERE NOT ALWAYS ADVISED OF THEIR APPEAL
RIGHTS AT THE TIME SERVICES OR PAYMENT WERE DENIED

According to 42 CFR 417.608, HMOS are required to send a written “initial
determination”   of any negative decision to beneficiaries within 60 days of their request
for services or payment for services. The notice must advise beneficiaries of their
right to appeal these decisions. Our case reviews revealed that some HMOS in our
sample did not comply with these requirements.       See Appendix A for detailed
information on the numbers of cases where HMOS were not fully in compliance with
HCFA directives.

lhwnty-seven   pement of our samplecase@x      did not have initialdeterminationson jile.

In our appeal sample      of 144, 8 HMOS did not have initial determinations  in
27 percent or 39 case     files. There was no evidence that beneficiaries were sent the
initial determinations   or given their appeal rights. One of these HMOS did not have
initial determinations   in 10 out of 15 case files and could not produce them upon
request.

This finding is supported by our companion report “Medicare HMO Appeal and
Grievance Processes: Beneficiaries’ Understanding”     (OEI-94-07-00281).   In that
inspection, we found that 41 respondents   (9.6 percent) considered they were denied
services. Of these 41, 34 (83 percent) beneficiaries reported that they did not receive
the required notice explaining the denial and appeal rights. Similarly, a total of 39
respondents   (8 percent) were denied payment.     Of these, 9 (23 percent) reported they
did not receive this required notice.

Five HMOS sent initiizldeterminations
                                    withoutinch.iding
                                                    appah rights.

These five plans sent denial notices to beneficiaries in six cases without including
instructions on their right to appeal the decision. The notices sent to beneficiaries
contained only the reason for the denial. We also noted that an HMO sent
2 additional initial determinations  in 1 case, including appeal rights, but gave
beneficiaries less than the required 60 days to file a request for reconsideration.   The
beneficiary was given two business days to appeal in one notice and seven days to
respond to the second notice.

HMOS sent initialdeterminations
                              to ben@ciariesAFTER receivingthe requestfor
reconsideration.

Five HMOS sent initial determinations   after receiving the beneficiary’s request for
reconsideration in 12 cases. One of these plans sent an initial determination    on
the same day the case was sent to NDG. ln four other cases, it sent the letter from
four to seven months after receiving the request for reconsideration.



                                             6

THE HMOS DID NOT PROPERLY DISTINGUISH APPEALS FROM
GRIEVANCES

HMOS zhcomectljprocessedcases withappealiwues as gn”evaraces.

The 42 CFR 417.606 requires that HMOS completely separate disputes involving
appeal issues (i.e., denials of or payment for services) and grievance issues (i.e., quality
of care or waiting time for services). They are required to process beneficiary disputes
under one process or the other, depending on the nature of the case. While appeal
cases are subject to independent    Federal review and various other levels of appeal,
grievances are resolved internally, without the same protection of independent      reviews.

In our review we identified 37 cases (26 percent) where appeal      requests   were
improperly processed as grievances.   Examples include:

  �	   One HMO processes cases with appealable issues as either an appeal or a
       grievance based on whether the HMO provides an initial determination          in
       writing to the beneficiary. If the case involves an appealable issue and the
       HMO does not issue a written initial determination,    the case is incorrectly
       processed as a grievance. There were three such cases incorrectly processed        in
       our sample.

  .	   Another HMO had 7 cases with appealable issues in its grievance sample of 13
       that were incorrectly processed as grievances, more than half of its sample
       cases. This HMO also had five cases in the appeal sample that were initially
       processed as grievances.

  �	   Two other HMOS indicated during intemiews that they had incorrect processes,
       however, no cases were found in the 30 reviewed in their sample. One HMO
       indicated that they attempt to resolve cases containing both an appeal and a
       grievance through their “informal” grievance process. If the beneficiary is
       dissatisfied with the decision, the plan attempts to process the case through
       their “formal” grievance process. The other HMO indicated that “When a
       doctor refuses care, it is treated as a grievance - informal, or formal if in
       writing. The grievance would go to either the Peer Review or NDG.” This
       HMO is treating an appealable issue as a grievance.

As a result of incorrectly processing appeals as grievances, beneficiaries maybe denied
full due process. These beneficiaries may not receive their right to an independent
Federal review and may suffer financial expenses and potential harm to their health.

Some HMOS incowectlyprocessedcomplairati
                                      thatincludedboth appal andgrievance
iiwues.

The HCFA HMO/CMP Manual Section 2400.1 instructs HMOS to process separately
and simultaneously   those cases with both appeals and grievances. Issues in these cases
are not to be resolved through one process and then the other if the beneficia~   is
dissatisfied with the results. However,   three plans in our sample did not comply with
these guidelines in five cases.

One HMO in our sample incorrectly processed a case that involved both an
appealable ($16,200) and grievable issue through the grievance process. After
processing the case as a grievance and resolving the grievance issue, it eventually
processed the appeal, sending the initial determination  to the beneficiary seven
months after the request for reconsideration,  and then to NDG one month after this.
NDG overturned the HMO decision and the claim was paid almost 12 months after
the beneficiary first filed the appeal.


THE HMOS DID NOT FULLY COMPLY WITH HCFA DIRECTIVES FOR
PROCESSING APPEALS AND GRIEVANCES

processim Appeals

Refemd of Appeal Cases to NDG.         While the HMO/CMP Manual Section 2405.3
requires all denials, whether partial or full denial cases, be forwarded to NDG within
60 days of request, we found some HMOS did not forward cases and sent beneficiaries
multiple reconsideration   determinations.

  �	   Five HMOS in our sample did not forward eight denied or partially denied
       cases (six percent) to NDG. These cases were closed without resolution and
       the beneficiaries were not provided the right to an independent Federal review.

       In one appeal case, it was explained to the beneficiary that the service would
       not be covered and the case was closed without giving the beneficiary full due
       process. The case was not sent to NDG for review as required.

  �	   One HMO sent multiple negative reconsideration    determinations   in response to
       a non-plan provider’s requests for payment in two cases over a span of two
       years. The non-plan provider wrote numerous letters to this HMO requesting
       they forward the cases to NDG and twice furnished copies of HCFA’S
       instructions of how to forward cases to NDG prior to it complying.

Good Cause. According        to the HMO/CMP Manual Section 2405.l(C), HMOS accept
requests for reconsideration     filed after the 60 day deadline if beneficiaries reveal
circumstances that show “good cause” for the delay. Examples include: the
beneficiary did not receive the initial determination,    was seriously ill, or had an
accident that destroyed important records. To accept these late requests for
reconsideration,  HMOS must establish the reason for the beneficiary’s delay in filing
an appeal.

Three HMOS did not document the basis for “good cause” when accepting appeals
filed after 60 days in 14 cases, or 10 percent of the sample. One HMO had eight
cases, or over half of its sample appeal cases where they were accepted without




                                             8

requiring the beneficiary to show “good cause.”   One appeal   case was accepted   two
years after the initial determination was sent.

Delays in Processing Appeals. HMO/CMP Manual Section 2405.4(A) states that HMOS
should “never issue more than one denial notice for a request for service or item or
payment for an out-of-plan claim.” When a beneficiary files a request for
reconsideration, the HMO has already denied the case once and should automatically
send it to NDG within 60 days if the decision is upheld. In our sample, we found
examples of appeal cases that were processed incorrectly.

  �	   Five HMOS sent beneficiaries multiple initial determinations    in nine cases (six
       percent) in our sample. One plan sent six initial determinations    in one case,
       while another plan sent three in one case.

  �	   Five HMOS had 13 cases (9 percent) where beneficiaries had to request a
       reconsideration  determination multiple times before the HMO began the
       appeals process.


Time Frames for Appeals

Although 98 percent of the 132 HMOS surveyed in our companion inspection
(“Medicare HMO Appeal and Grievance Processes: Survey of HMOS”
[OEI-94-07-O0282]) reported in their responses that appeals are processed within the
required time frame, case reviews revealed that some HMOS did not meet these
requirements.

  �	   The 42 CFR 417.608 requires the initial determination    be sent within 60 days of
       request for payment or services. Failure to issue a written notice within this
       time frame constitutes an adverse initial determination  which the beneficiary
       may appeal. Five HMOS in our sample did not issue the initial determination
       within the 60 days of the request in 11 cases.

  �	   The HMO/CMP Manual Section 2403.1 requires that HMOS process claims
       within 24 days if complete and no later than 60 days if development   is needed.
       However, one plan had two cases in our sample that had not been paid since
       1990. The provider was appealing for payment two years after services were
       rendered.  These 2 case files contained 1992 documentation    showing the
       non-plan provider had 13 additional appeals pending with this HMO since
       1990. Resolution of the two sample cases took five years.

  �	   HMOS are to make the reconsideration       determination   within 60 days from the
       time the appeal is filed. However, 9 plans did not make the reconsideration
       determination  within this time frame or inform the beneficiary timely in 19
       percent (28 cases) of the our sample. The case file reviews showed that HMOS
       made the determinations     from 3 to 11 months past the due date. We noted
       that 1 made its determinations   late in 7 out of 15 cases.




                                             9

  �	   One HMOinour          sample hasapre-sefice       denial procedure that causes
       inordinate delays in processing appeals. A contracted plan physician requests
       HMO authorization       for a referral with the plan denying the referral until proof
       of medical necessity is provided.      This cycle may occur several times before a
       beneficia~    questions the delay or files an appeal. These beneficiaries may not
       receive due process if the HMO does not send the initial determination         even
       though the referral has been denied multiple times. Our review revealed
       3 cases where the HMO, after multiple internal denials were made, sent the
       initial determination    4 to 5 months past the required 60 days.

  �	   The HMO/CMP Manual Section 2405.3(A) requires that HMOS automatically
       send reconsiderations   to NDG within 60 days of the request if denied in part or
       in full. They are required to meet this time frame even if the file is incomplete
       or pending medical records. In our reviews, however, we found four HMOS
       that did not send nine cases to NDG within this time frame.

  �	   The HMO/CMP Manual Section 2405.4(B) instructs HMOS to notify NDG
       within 60 days that decisions on overturned cases have been carried out. Our
       file review reflects that four plans in our sample did not notify NDG of
       payment in seven overturned cases within the time requirements.


Resolvimz Grievances

  .	   The 42 CFR 417.600 and 417.606 requires HMOS to investigate and resolve
       grievance cases in a timely manner. We found one plan that suspends action
       on grievance cases while awaiting receipt of medical records. Cases remain
       closed and are re-opened only if the medical records are received. As a result
       of this incorrect process, cases are not being resolved. In our sample, we found
       two cases which had been closed pending medical records in this HMO.

  �	   While required to resolve grievance cases, one HMO in our sample had seven
       unresolved grievances and another had two cases that were either left open or
       closed without resolution.


Documentation

  .	   Eight HMOS had undated or undocumented           initial determinations on file in 46
       (32 percent) of the sample cases. Half of these plans had 7 to 12 cases with
       insufficient information.    Not having these vital documents dated or on file
       causes difficulty in assessing timeliness and poses a problem for HMOS in
       proving they sent beneficiaries, with appeal disputes, the required initial
       determination    and appeal rights.

  �	   Five HMOS had 25 cases (17 percent) with undated or undocumented
       reconsideration determinations on file. Without the date on the




                                             10

     reconsideration  determination, it is extremely difficult to determine   if the HMO
     made this decision within the 60 day requirement.

�	   HMOS are required to inform the beneficiary of their decision within 60 days
     from the time the appeal request was filed. Although there are minimal
     directives for processing grievance cases, regulations also mandate that HMOS
     notify beneficiaries of the results of grievance disputes. However, we found
     4 HMOS in our sample that had 20 appeal cases (14 percent) and 5 HMOS
     with 15 grievance cases where there was no evidence that the beneficiary was
     ever notified of results.

�	   Six HMOS had such poor documentation        that it was impossible to reconstruct
     16 appeal cases (11 percent) and 8 grievance cases (5 percent).     HMOS refer to
     notices, attachments, beneficiary letters, and phone calls but did not keep them
     on file. One plan had completely separate files documenting this information in
     two different departments.    However, this important information was not
     reconciled or reviewed with the appeal or grievance files. Another HMO rarely
     documented     its modes of communication   with the beneficiary and retained little
     documentation      on cases.
                        RECOMMENDATIONS


HCFA’S Office of Managed Care is making substantial efforts to improve the HMO
appeal and grievance processes.    It has recently created a work group - Managed Care
Appeals and Grievance Initiative - organized to make program improvements          in these
functions.  In 1995, HCFA’S Office of Managed Care revised guidelines used by
HCFA Regional Offices in their annual review of HMOS. In addition, HCFA in
conjunction with Network Design Group, has conducted training sessions, provided
technical assistance, and issued publications to improve HMOS’ understanding        and
processing of appeals and grievances.     HCFA plans to revise the HMO/CMP Manual
and has received funds to evaluate problems in the area of appeals and grievances.
However, as our findings reflect, there are areas where improvement     is needed.

We recommend         that HCFA

  �   ensure that HMOS comect~distinguish
                                        andprocessappak and grievances.

      HCFA can       accomplish this during their annual visits to HMOS. However, we
      suggest that    HCFA conduct case reviews as well as examine the operating
      procedures     to determine that appeals and grievances are processed correctly. We
      also suggest    that HCFA focus closely on whether HMOS:

         - are in compliance     with all directives     in processing    of appeal    and grievance
           cases;

         - include appeal   rights in all initial determinations         sent to beneficiaries;   and

         - release initial determinations and reconsideration             decisions   in appeal   cases
           according to established time frames.

  �   modfi the HCFA HMO/CMP Manual to cla~                     and specifj kq requimrnenfi.
      This can be accomplished by:

         - clarifying the explanation and language          required on the appeal and grievance
           issues to improve HMOS’ understanding              of the differences and

         - establishing minimum requirements      for documentation   of appeal and
           grievance files so that an independent    reviewer, based upon examining the
           files, will be able to follow and understand the adjudication by the HMO.

  �   broadenefoms to formallj trainHMOS on the appealand grievanceprocesses.

      We noted a significant amount of turnover in HMO staff responsible        for
      processing appeals and grievance cases during this inspection.    In light of this
      turnover, there is a need to continue training on a routine basis.



                                                   12

                         AGENCY COMMENTS


We solicited and received comments on our draft report from HCFA. The complete
text of their response is included as an appendix to this report. A summary of their
comments and our response follows.

The HCFA agreed with the conclusion of our reports that improvements          are needed
and indicated that they are working to implement a number of our recommendations.
We are pleased that HCFA agrees that improvements          are needed in the appeal and
grievance processes, and we recognize that changes are in the process of being made
through the Medicare Appeals and Grievance Initiative (MAGI).          However, because
HCFA’S response does not specifically address the recommendations        contained in our
reports, we are unsure whether the problems identified in our report will be fully
addressed through this initiative. As a result, it will be important for HCFA to include
in their response to the final report an action plan that specifically addresses each
recommendation.

Although HCFA acknowledges the case review report identifies mistakes made by
health plans, they expressed concerns about the sample sizes and number of cases
reviewed.   We agree that this sample could not be used to make national projections
of the incidence of mistakes. However, the number of cases reviewed and outcomes
of the reviews are more than adequate to indicate the existence of significant problems
in HMO processing of appeals and grievances.

Finally, HCFA raised questions about the knowledge and expertise of the individuals
who prepared the HMOS’ responses to our survey documents.       We requested and
must assume that knowledgeable     HMO staff completed our survey. We also note that
beneficiaries making inquiries regarding appeals and grievances are likely to be
interacting with these same individuals or their staff.




                                            13

  APPENDIX               A




   Problem Areas Detected III

On-Site Review Of HMO Case Files




             A-1
   BENEFICIARIES      WERE NOT ALWAYS ADVISED OF THEIR APPEAL RIGHTS AT THE TIME SERVICES OR PAYMENT WERE DENIED

HMOS did not have evidence of giving
beneficiaries appeal rights in initial
determination. (27% or 39 cases)                                    10         6            2         2      6      4        8   1
HMOS sent initial determinations without
appeal rights included. (4% or 6 cases)           1                            1            2                       1            1
HMOS sent initial determinations AFf’ER
receiving the request for reconsideration.
(8% or 12 cases)                                  6                                         2         1      2                   1

                                  THE HMOS DID NOT PROPERLY     DISTINGUISH        APPEAU       FROM GRIEVANCES

HMOS incorrectly processed cases with appeal
issues as grievances. (26% or 37 cases)           3     1                                                    3                   3
HMOS incorrectly processed cases with both
appeal and grievance issues. (3% or 5 cases)     +2

                 HMOS DID NOT FULLY COMPLY WITH HCFA DIRECI’fVES             FOR PROCESSING         APPEALS AND GRIEVANCES

                                                              Processing Appeals

HMOS did not forward partially or fully denied
cases to NDG. (6% or 8 cases)                     1                                         1                       1        2




                                                                                       T
HMOS sent multiple reconsideration
determinations in cases denying payment over
two years prior to forwarding cases to NDG.
(1% or 2 cases)                                                                             2

HMOS did not show “good cause” for accepting
beneficiary cases filed past the 60 day
requirement. (1070 or 14 cases)                                                                              8      3




                                                 A-2

                                       CNSITE   REVIEW OF APPEAJJGRIEVANCE             CASE FILE@ AND ERRORS

                                                                                10 HMOS BY NUMBER OF CAWS

AREAS IN ERROR                                             E           c                     E       F         G   H   I

HMOS sent beneficiaries more than one initial
determination. (6% or 9 cases)                     2                               1         2       2         -       2   -
HMOS did not begin the appeals process until
beneficiaries requested a reconsideration
multiple times. (9% or 13 cases)                   5                               1         2       2         3

                                                               Time Frames for Appeals

HMOS did not make the initial determination
within the 60 day requirement.                     6                                         2       1         -   1       1
(8% or 11 cases)

HMOS did not pay claims timely within 60 days
of request (cases were not paid until 5 years
after service). (190 or 2 cases)                                                             2
HMOS did not make reconsideration
determination within 60 days of beneficiary
request. (1990 or 28 cases)                        4       2           6          1          7       1         1   5       1
HMO’s pre-service denials caused inordinate
delays in the process. (2% or 3 cases)             3

HMOS did not forward cases to NDG within
the 60 days required. (6% or 9 cases)              1                   3                     3                     2
HMOS did not notify NDG when decisions on
overturned cases were carried out.
(5% or 7 cases)                                    1                                         2                 1   3

                                                                Resolving Grievances

HMOS suspend unresolved grievances while
awaiting receipt of medical records. Cases
remained closed unless the HMO received the
records. (170 or 2 cases)                                                                                      2

HMOS did not resolve grievance cases; cases
were left open or closed without resolution.
(6% or 9 cases)                                    2                                                                       7


                                                  A-3

                                                                       Documentation

HMOS either did not have dates on initial
determinations or evidence of sending them to
beneficiaries. (32% or 46 cases)                                            12         9          3           2         7          4          8           1

HMOS either did not have dates on
reconsideration determinations or dld not have               +
them on file. (17% or 25 cases)                       1                     6          1                                           6          11




                                                             T
HMOS did not have evidence of noti~ing
beneficiaries of the results of the HMO
reconsideration determinations.
(14% or 20 cases)                                                           3          1                                           7          9
                                                                                                         I
HMOS had no evidence of noti@ing
beneficiaries of the results from grievances
cases. (10% or 15 cases)                              3                     1                     2                                           3          6

HMOS had such poor documentation that it
was impossible to recreate appeal (a) and
grievance (g) cases. (appeals - 11% or 16 cases,
grievances - 5% or 8 cases)

Total Number of Errors in Cases by HMO               41
                                                             1
                                                             &Eik
1 Review was based on 144 appeal cases and 148 grievance cases within 10 HMOS.
                                                                                       24
                                                                                              i
                                                                                                  3g

                                                                                                  52
                                                                                                             la

                                                                                                             18
                                                                                                                       lg

                                                                                                                       34
                                                                                                                                   -

                                                                                                                                   44
                                                                                                                                             10 a

                                                                                                                                              54
                                                                                                                                                        4g

                                                                                                                                                         26


2 HMO had 7 cases with appeal issues in the grievance sample that were processed as grievances and 5 cases in the appeal sample that were processed initially
  through the grievance process for a total of 12 cases.




                                                    A-4

   APPENDIX                 B




Health Care Financing Administration
        Response to Report




                B-1
      -t.
y’          %
                   DEPARTMENT     OF HEALTH&    HUMAN   SERVICES                      Haalth Care Financing Administrate
!s ##f
-+.
                                                                                      The Admlnbtrator
                                                                                      W@Wxm OJcl zozm

                                                        DEC121W

                DATE:

                TO;          June Gibbs Brown
                             Inspedor General

                FROM         Bruce C. Vladeck
                             Administrator

                Sulli-mm     Office of bspector General (OIG) Draft. Reports: “hkcliearc HMO Appeal
                             and Grievance Processes-Overview: (OEKOT-94-W2W);‘Medicare
                             13M0 .4ppeal and Grievance Processes--Benefkiaries’ Understanding,”
                             (OEI-07-94-00281); “Medicare HMO Appeal and GrieWce Processes-­
                             Survey of HMOs,” (OEI-07-94-00282); “Medicare HMO Appeal and
                             Grievance Prowsses-Ileview of Cases,” (OEI-07-94-00283)

                we reviewed the above-referenced reports that examine the operations of the Mc&m.re
                risk-based HMOSappeal and grievance processes. We agreewith the conclusion of your
                report that improvements are needed and are working to implement a number of your
                recommendations. Our detailed wmments are attached,

                Thank you for the opportunity to review and comment on this report,

                Attachment
               Health Care FinancbM Adminktraiion (HCFA) Comments

                          on Office of Insuector Gene ral (OIG\

    Draft Rewrt S:“bkdicm? ~dth Maintenance ~f%MliZ8tiOllS’w 01 Atmeal and

Grievance Processes “Overview.” (OEL07-94-0028@: Me&xe HMO Apye@qnd
Grievance Processes: “Benei3ciaries’Understanding” (OEI-07-94@2811: ”meficme
    HMO Am3ealand Grievance Processes: ‘%uwY of HMOs~’ (OEI-07-94-002S2);
         “Medicare HMO APtxd and(?n “evanceProcesses; “Review of Cases:
                                  (OEL07-94-00283\


OIG Reeomtnendations

OIG recommends that HCFA take the following actions to aikkess problems hi@lighted
in the above studies:

o     Actively monitor HMOS to ensure beneficiaries     arc issued written determinations.
                                          *
0     Work with HMOS to establish *           “   d appeal and @eVan& language
      requirements in marketin@nrolbnent materials and operating procedures.

0      Ensure that HMOScorrectly distinguish and procws appeals and grievances.

0      Require HMOSto report Medicare contract-specific data on appeal and grievance
       cases.

0      Mod@ the HMO/CMP Manualto Glarifjand speci& key requirements.

0      Broaden efforts to formally tra.iuHMOSon the appeal andgrievanceprocesses.

H(YA Response

We agree that improvements are needed. We have a comprehensive effort underway
called the Mcdioare Appeals and Grievatwe Initiative (MAGI) which includes a number
of objectives that are direetly related to the recommendations in your reports. Our
objectives include identiijing and meeting the information needs of beneficiaries
regarding their appeal rights; promoting hml& plan accountability by de~eloping and
hnpr’ovhg i.n$ormationon appeals and making mea@.@l information mop available;
and refining mechanisms for monitoring and assisting in the continuous improvement of
health pkm perfonuance.
Page 2

OIG and HCFA jointly ksued a Medicare benefi&uy advisory btieti          entit.1~ “What
Medicare Beneficiaries Need to Know About HMO Arrangements: Know Your Rights.”
This easy-to-read document conta@ information on appeal @% ~g co~pltits, and
rights to emergency and urgently needed serviees. Copies of this bulletin are being
distributed nationally. Additionally, significant chaqgcs were made to improve the
managed care portions of the Medicare Haudboo~ wtich -          seti to @ bfwfi@u@ MS
year. New data reporting requirements on phm=levelreoonsidemtions areiunder
development and may be instituted as early as mid-1997. We also plan to r@ructure and
shorten the time lines for handling health care decisions and nxmnsiderations by,health
plans.

Beneficiaries’ Understanding

We are pleased to see the hi@ level of knowledge among Medicare knrollees &ar&ng
their right to appeal and fife complaids, This is an improvement over w earlier finding,
and one we believe results from both Federal program and plm effb~%t edwxting
beneficiaries and providing notices, With regard to the fitig that lxxwfickuies~d a
lesser level of awareness as to when to exercise their appeal ri@s, fortheotig
regulations cIari&ing the rightto appeal when services are reduced or tcrtiated   and
when to provide notices of nonGoverageat these points in care management should
si~cant.ly   help address ‘ti   problem.   We will consider the recommendations     in this
area.

Survey HMOS

Incorrect categorization of appeals as grievances is an area for improvement identiled      in
our MAGI initiative. However, we question the percentage and methodology          set forth in
this report. Because oertain sta.lfwithin the organizational structure of an HMO, or staff
at delegated medkal groups within the HMO’s networ~ are generally responsible for
as@ning mmpltits to the appeals or grkmme tiac~ it would be important to know
who responded to the two questions asked on this subject and what role they play in this
particular PIOC6SS,We will be motig to itit@ theswwePIMJkm,            WAwWE?
tu.mmrand ccmfhsionover differences in Federal and state termhology.
The type of statistical information sought by OIG staff has not been a requirement for
Medicare-contracting health plans. Therefore, it is not surprising that many plsns
aggregate the appeals information across ~o~erc~~      MedicWe, and Medicaid rqembers.
New plan-level appeals reporting requirements should resolve the need for Medicare-only
information, and respond to you recommendation,
Page 3



We have concerns about the small sample sizes and number of cases used to present
findings in this repofi However, the report identifies the ~es of mista?ceshealth plain
make in operating an appeals sys~ and the needs that plaus have for clear, distinct.
information and trainkg about the Medicare managed care requirements (and how time
differ from state requirements for their commercial and Medicaid enrollees), We wdl
consider the Ietxmunendations presented
